OFFICE OF AUDIT
REGION IV
ATLANTA, GA                                  MEMORANDUM OF REVIEW




                  OFFICE OF

                  INSPECTOR GENERAL
                  U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT




                   Wells Fargo Bank
         Foreclosure and Claims Process Review
                      Fort Mill, SC




MEMORANDUM NO. 2012-AT-1801                           MARCH 12, 2012
                                                                           U.S. Department of Housing and Urban Development
                                                                           Office of Inspector General, Region IV
                                                                           Office of Audit, Box 42
                                                                           Richard B. Russell Federal Building
                                                                           75 Spring Street, SW, Room 330
                                                                           Atlanta, GA 30303-3388

                                                                           (404) 331-3369 FAX (404) 730-2382
                                                                           Internet http://www.hud.gov/oig/


                                                                           MEMORANDUM NO.
                                                                                2012-AT-1801

March 12, 2012

MEMORANDUM

FOR:             Charles S. Coulter, Deputy Assistant Secretary for Single Family Housing, HU


                 //signed//
FROM:            James D. McKay, Regional Inspector General for Audit, Atlanta Region, 4AGA

SUBJECT:          Wells Fargo Bank
                  Foreclosure and Claims Process Review
                  Fort Mill, SC

                               INTRODUCTION AND BACKGROUND

As part of the Office of the Inspector General’s (OIG) nationwide effort to review the
foreclosure practices of the five largest Federal Housing Administration (FHA) mortgage
servicers, (Bank of America, Wells Fargo Bank, CitiMortgage, JP Morgan Chase, and Ally
Financial, Inc.) we reviewed Wells Fargo’s foreclosure and claims processes. In addition to this
memorandum, OIG issued separate memorandums for each of the other four reviews.1 OIG also
plans to issue a summary memorandum reporting the results of all five memorandums. We
performed these reviews due to reported allegations made in the fall of 2010 that national
mortgage servicers were engaged in widespread questionable foreclosure practices involving the
use of foreclosure “mills” and a practice known as “robosigning”2 of sworn documents in
thousands of foreclosures throughout the United States. We initially focused our efforts on
examining the foreclosure practices of servicers in judicial States and jurisdictions in which they
do business. 3

1
    See memorandums 2012-FW-1802, 2012-KC-1801, 2012-CH-1801, 2012-PH-1801.
2
    We have defined the term “robosigning” as the practice of an employee or agent of the servicer signing
    documents automatically without a due diligence review or verification of the facts.
3
    With respect to foreclosure procedures there are three variations, those jurisdictions that require a complete
    judicial proceeding, which are referred to as “the judicial jurisdictions,” those that do not require a judicial
    proceeding, and those that are a hybrid. For purposes of this review we determined that there were 23 States
    and jurisdictions.
Wells Fargo is a supervised FHA direct endorsement lender that can originate, sponsor, and
service FHA-insured loans. During the period October 1, 2008, through September 30, 2010,4
Wells Fargo submitted 14,420 claims on foreclosed loans to FHA for payment in the 23 judicial
States and jurisdictions totaling about $1.7 billion.5

Because we identified potential False Claims Act6 violations, we provided the U.S. Department
of Justice (DOJ) with our analyses and preliminary conclusions as to whether Wells Fargo
engaged in the reported foreclosure practices. DOJ used our review and analysis in negotiating a
settlement agreement with Wells Fargo. On February 9, 2012, DOJ and 49 State attorneys
general announced a proposed settlement of $25 billion with Wells Fargo and four other
mortgage servicers for their reported violations of foreclosure requirements. As part of the
proposed settlement agreement, each of the five servicers will pay a portion of the settlement to
the United States and also must undertake certain consumer relief activities. The proposed
settlement agreement described tentative credits that each mortgage servicer would receive for
modifying loans, including principal reduction and refinancing, and established a monitoring
committee7 and a monitor to ensure compliance with agreed-upon servicing standards and the
consumer relief provisions. Once the final settlement agreement has been approved by the
courts, OIG will issue a separate summary memorandum detailing each of the five servicers’
allocated share of payment due as a result of the settlement agreement.

Our objective was to determine whether Wells Fargo complied with applicable foreclosure
procedures when processing foreclosures on FHA-insured loans.

                                     METHODOLOGY AND SCOPE

To accomplish our review objective, we

        Obtained an understanding of relevant legislation, program guidance, and criteria related
        to FHA single-family mortgage insurance.
        Obtained and examined relevant Wells Fargo written policies and procedures regarding
        its foreclosure process.
        Obtained and reviewed relevant reviews of Wells Fargo’s servicing and foreclosure
        processes.
        Reviewed personnel files that Wells Fargo provided for selected employees.
        Interviewed Wells Fargo management and staff, including those involved in the
        document execution, notary, foreclosure, and claims processes.
        Coordinated with Wells Fargo’s legal counsel, our Office of Legal Counsel, and DOJ
        attorneys.


4
    Federal fiscal years 2009 and 2010
5
    Properties located in judicial foreclosure States and jurisdictions accounted for $2.1 billion in claims (30 percent
    of the total loans with claims). Properties located in nonjudicial States and foreclosure jurisdictions accounted
    for more than $5.4 billion in claims (70 percent of the total loans with claims). These amounts include all
    categories of FHA claims.
6
    31 U.S.C. § 3729 et. seq.
7
    Comprised of representatives of the State attorneys general, DOJ, and HUD.
                                                          2
        Identified and reviewed a nonstatistical random sample of 21 loans from a database
        provided by Wells Fargo and verified that the 21 loans were in the U.S. Department of
        Housing and Urban Development’s (HUD) Single Family Data Warehouse. We selected
        this nonstatistical sample to evaluate the foreclosure affidavits that were prepared and to
        identify individuals responsible for signing and notarizing affidavits. The Wells Fargo data
        included FHA-insured loans from October 1, 2008, through September 30 2010, for which
        Wells Fargo had prepared foreclosure affidavits in judicial States and jurisdictions.
        Analyses of the 21-loan sample revealed that all 21 loans had affidavits that were signed
        without a due diligence review or verification of the facts; however, only 14 of the 21 loans
        resulted in foreclosure and conveyance of the property to FHA. The remaining seven loans
        were processed through loss mitigation, and the properties had not been conveyed to HUD
        as of December 31, 2010; thus, they were excluded from our review.
        Reviewed FHA claims and related documents, including affidavits, for the 14 loans in
        our sample.
        Obtained and analyzed FHA claims data from both Wells Fargo and HUD.

During the course of our review and the drafting of this memorandum, Wells Fargo was actively
engaged in negotiations with DOJ in an attempt to resolve potential claims under the False
Claims Act or other statutes for the conduct we were reviewing. Accordingly, OIG determined
that our work product was privileged and not releasable to Wells Fargo for any purpose,
including the solicitation of written comments on our findings from Wells Fargo. For this same
reason, we did not provide Wells Fargo with a copy of the draft memorandum. Both DOJ and
HUD concurred with our determination that the work product was privileged.

OIG also issued memorandums reporting the results of the reviews of four other servicers. The
results reported in the five OIG memorandums differ due to various factors. These factors
include (1) the level of information made available to the auditors at the time of the onsite
reviews or that was obtained later through subpoenas or civil investigative demands8; (2)
variances between review procedures used, including the analysis of the data, that were governed
in part by the amount and types of information obtained; (3) differences between the foreclosure
procedures used by the servicers; and (4) scope limitations imposed by some servicers.

Our review generally covered Wells Fargo’s foreclosure and claims processes for its FHA claims
initially processed by HUD between October 1, 2008, and September 30, 2010, including its
procedures for signing and notarizing sworn judgment affidavits. The review included judicial
foreclosure States and jurisdictions, which provided a broad overview of Wells Fargo’s practices
and compliance with requirements. We expanded the scope as needed to accomplish our
objective. We initiated this review on October 15, 2010, and performed onsite work at Wells
Fargo’s office in Fort Mill, SC, between October and December 2010.




8
    Under 31 U.S.C. § 3733, CIDs can be served on a person to give oral testimony whenever the Attorney General
    has reason to believe that the person may be in control of information relevant to a false claim investigation.
                                                        3
                                                Scope Limitation

Our review was significantly hindered by Wells Fargo’s reluctance to allow us to interview
employees or to provide data and information in a timely manner.

Wells Fargo provided a list of 14 affidavit signers and notaries and then initially restricted our
access to interview them. Wells Fargo attorneys interviewed them first and then only allowed us
to interview 5 of the 14 affidavit signers. Wells Fargo told us that we could not interview the
others because they had reported questionable affidavit signing or notarizing practices when it
interviewed them. After discussion with attorneys for Wells Fargo and OIG counsel, terms were
agreed to, permitting us to interview these remaining nine persons. The terms that Wells Fargo
set required that Wells Fargo management and attorneys attend all of the interviews as
facilitators. This condition resulted in delays and may have limited the effectiveness of those
interviews. Wells Fargo’s terms also required that persons we interviewed have private counsel
present on their behalf. Wells Fargo chose the private counsel and paid the attorney fees of the
persons we interviewed. Wells Fargo was not timely in arranging the private attorneys, which
further delayed our interviews.

However, as our work progressed and through other research, we began identifying many more
affidavit signers and notaries that Wells Fargo did not disclose to us initially. Wells Fargo
ultimately disclosed 35 persons, and we interviewed 33 of them (22 affidavit signers and 11
notaries). We did not interview the other two persons because they were on sick leave.

                                            RESULTS OF REVIEW

Wells Fargo did not establish effective control over its foreclosure process. This failure
permitted a control environment in which

                  The affiants9 routinely signed and certified that they had personal knowledge of
                  the contents of documents, including affidavits, without the benefit of supporting
                  documentation and without reviewing the source documents referred to in the
                  affidavits and verifying the accuracy of the foreclosure information stated in the
                  affidavits. A number of affidavit signers admitted having signed up to 600
                  documents per day.
                  A number of employees engaged as robosigners had little or no education beyond
                  high school and little or no experience in banking or real estate.
                  Work histories (when available) showed a lack of qualifications to hold the titles
                  held by affiants; for example, vice president of loan documentation. Moreover,
                  interviews disclosed that the titles were given for the sole purpose of allowing the
                  individual to sign documents and came with no other duties or authority.
                  Employees who notarized documents, including affidavits, routinely did not
                  witness the signature of the documents and notarized up to 1,000 documents per
                  day.


9
    An affiant is a person who signs an affidavit and attests to its truthfulness before a notary public.
                                                           4
This flawed control environment resulted in Wells Fargo’s filing improper legal documents,
thereby misrepresenting its claims to HUD, and may have exposed it to potential liability under
the False Claims Act.


                    Questionable Affidavit and Foreclosure Document Processes

Wells Fargo failed to follow HUD requirements10 for properties it foreclosed upon in judicial
foreclosure jurisdictions. These provisions required it to obtain and convey to the Secretary of
HUD good and marketable title to properties. Wells Fargo may have conveyed improper titles to
HUD because it did not establish a control environment which ensured that affiants performed a
due diligence review of the facts submitted to courts and that employees properly notarized
documents.

Based upon the results of our review, Wells Fargo’s practices may have exposed it to liability
under the False Claims Act for submitting the claims for insurance benefits to FHA without
following HUD requirements. We provided our preliminary findings to DOJ for its assessment
and determination on any potential liability issues.

Judicial foreclosures were processed through the court system beginning with Wells Fargo’s
filing a complaint or petition regarding a mortgage purportedly in default. The formal legal
document stated what the debt was and why the default should allow Wells Fargo to foreclose on
the property. In many judicial foreclosures, an affidavit was part of the foreclosure
documentation. Generally, a representative of Wells Fargo swore in a notarized affidavit that
Wells Fargo owned or held the mortgage in question and that the borrower was in arrears. As
judicial jurisdictions routinely resolved foreclosures through summary judgment,11 the accuracy
and propriety of the documents were essential to ensure the integrity of the foreclosure process.
Wells Fargo used a flawed process to submit FHA conveyance claims for judicially foreclosed-
upon properties during the review period and received FHA claim payments of more than $1.7
billion.12

Affiants Robosigned Foreclosure Documents

We interviewed a total of 22 affidavit signers and reviewed a sample of 14 loan foreclosure files
with FHA-paid claims and titles conveyed to HUD. In all 14 cases, the affidavits were
robosigned. Overall, the interviews indicated that the affidavit signers signed the great majority
of the judgment affidavits without personal knowledge of or otherwise verifying the data and
information contained in the affidavits they signed. Affidavit signers signed hundreds of
foreclosure affidavits per day, and most only verified that their name was properly typed on the
document as the signer of the affidavit. Many said that they did not read the affidavits. Many
told us that a notary was not present when they signed the affidavits. These persons did the vast

10
     See 24 C.F.R. § 203.366(a) and HUD Handbook 4330.4, paragraphs 2-6 and 2-23.
11
     A decision made on the basis of statements and evidence presented for the record without a trial. It is used
     when there is no dispute as to the facts of the case and one party is entitled to judgment as a matter of law.
12
     This amount was calculated based on information in HUD’s Single Family Data Warehouse and excludes
     claims for deeds in lieu of foreclosure.
                                                           5
majority of the affidavit signing. A few affidavit signers who told us that they did verify the data
in the affidavits did not routinely sign affidavits and reported signing very few affidavits during
our scope.

We also reviewed personnel files and questioned whether these individuals possessed the
qualifications (education, work experience, or training) and expertise typically required to verify
the content of the affidavits before signing them. Reviews of personnel files and the interviews
also raised concerns that Wells Fargo may have hired and designated unqualified persons as
“vice president of loan documentation,” with the sole responsibility as vice president being to
sign affidavits. For example, immediately before Wells Fargo hired an individual to be vice
president of loan documentation, the person worked at a pizza restaurant and as a bank teller.
Another had been a department store cashier and daycare worker, while another had worked on
the production line in a factory. These same persons also often worked in other positions at
Wells Fargo, generally without a direct relationship to foreclosure affidavits. These persons told
us that Wells Fargo gave them the title vice president of loan documentation for the sole purpose
of having them sign affidavits. Most affidavit signers told us that they did not have the related
education or work history to prepare them to sign the affidavits. They also told us that Wells
Fargo did not provide them training when they began signing affidavits. It wasn’t until October
2010 that training began and then only as result of our review.

Affidavit signers and midlevel managers responsible for the affidavits told us that Wells Fargo
management was aware that they did not read or verify the information in the affidavits that they
signed. Several persons we interviewed said that they had expressed concerns about signing the
affidavits (such as swearing that they had personal knowledge of the loan and had verified the
document’s content when they had not). Affidavit signers informed upper management that they
could not handle the workload. Wells Fargo management did not correct the problem and,
instead, in a March 2008 email, reduced the timeframes for processing the affidavits from 5 to 7
days to 24 to 48 hours, and the affidavit signers were required to sign the affidavits they received
each day at 9 a.m. by 12 p.m. that same day, often signing in excess of 100 affidavits during that
time. The following are excerpts from the email:

    “The Doc executable team is working very hard to obtain a 48 hour turnaround time for our
    docs. Due to attorney feedback and our wonderful challenging environment, this 48 hour
    turnaround time is critical.”

    “The doc Executable team will deliver all docs to you for signature by 9:00 EST. We need
    the docs signed by 12:00. In order to accommodate this schedule I want to encourage you to
    schedule 30 minutes in your calendar each day so that we can accomplish this turntime.
    (Name intentionally withheld) will work with each group to develop a pickup location for
    each group at 12:00.”




                                                 6
The midlevel manager for the affidavit process told us that she, on her own, began what was
supposed to be a 2-week study, whereby she and her staff read and verified the information
contained in the affidavits before signing. The midlevel manager began this study to
conclusively show that her department was understaffed and what staffing level would be
required to properly prepare and sign the affidavits. However, after just a few days, upper
management became aware of the “unauthorized study” because the affidavits became so
backlogged. The midlevel manager was directed to stop the study and return to the practice of
signing affidavits without reading or verifying data.

Notaries Did Not Witness Signatures

Wells Fargo did not establish a control environment which ensured that its notaries met their
responsibilities under State laws that required them to witness affiants’ signatures of documents
they notarized.13 We also interviewed 11 notaries, and they reported notarizing documents
without seeing the person sign the affidavit. Some notaries told us that they let others use their
notary stamp to notarize affidavits. Some notaries also told us that they notarized documents that
were unsigned. Notaries told us that Wells Fargo did not initially provide them training when
they began notarizing affidavits. It wasn’t until October 2010 that training began and then only
as result of our review. Wells Fargo management, in a March 2008 email, established
procedures for the notaries not to witness the affiant signing the affidavits. The following is an
excerpt from the email:

      “Notaries: - Docs will be delivered to you by 12:30 pm each day and we will need these
      docs notarized by 2:00pm EST each day. I want to encourage each of you to schedule time
      in your calendar to accomplish this task.”

Because this type of deficiency undermined the integrity of the control environment, the
affidavits and other foreclosure documents submitted by Wells Fargo were unreliable and
inauthentic, exposing it to potential False Claims Act liability.

Wells Fargo Provided Belated Training and Procedures

It was not until October 2010 that Wells Fargo took substantive action based on its own concerns
to address concerns about affidavit signing and notarizing. It provided training that established
procedures to verify data in the affidavits and for the notary to observe the person signing the
document before placing the notary seal. Although Wells Fargo had reinforced its foreclosure
procedures for signing and verifying the affidavits, we remained concerned that its procedures
remained inadequate. At the time of our review, affidavits continued to be processed by these
same signers, who may not have been qualified, and these signers may not have adequately
verified certain figures because they accessed a computer screen of data showing a compilation
of figures instead of verifying the data against the information through review of the books and
records kept in the regular course of business by the institution.


13
     Every state’s notary laws require that the notary personally administer an oath and/or personally verify the
     identity of the document signer.
                                                           7
                                        CONCLUSION

Wells Fargo did not establish an effective control environment to ensure the integrity of its
foreclosure process. Because it failed to establish proper policies and procedures to ensure
compliance with laws and regulations, its affiants robosigned foreclosure documents, and its
notaries failed to authenticate signatures. As a result of its flawed control environment, Wells
Fargo engaged in improper practices by not fully complying with applicable foreclosure
procedures when processing foreclosures on FHA-insured loans. This flawed control
environment resulted in Wells Fargo’s filing improper legal documents, thereby misrepresenting
its claims to HUD.

During the period October 1, 2008, through September 30, 2010, Wells Fargo submitted 14,420
conveyance claims for payment in the 23 States and jurisdictions totaling about $1.7 billion.
DOJ used our review and analysis in negotiating the settlement agreement.

Once the settlement agreement is approved by the court, OIG will issue a separate summary
memorandum to HUD containing recommendations to correct weaknesses discussed in this and
the other four memorandums. Accordingly, this memorandum contains no recommendations.




                                               8
